               U.S. Department of Commerce
                   Office of Inspector General



Semiannual Report to Congress

                             September 2013
Office Of
inspectOr General




                                                  inspector General                   Office of counsel




                                                       Deputy
                                                  inspector General




                        Office of                  Office of audit                          Office of
                      administration               and evaluation                        investigations




Oversight areas                                              OiG Main number
Office of the Secretary                                      Inspector General. . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.4661
Bureau of Economic Analysis
                                                             OiG Hotline
Bureau of Industry and Security
                                                             Telephone. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.2495
Economic Development Administration                                                                                                 or 800.424.5197
Economics and Statistics Administration
International Trade Administration                           TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.5923
Minority Business Development Agency                                                                                                     or 800.854.8407
National Institute of Standards and Technology
                                                             E-mail. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .hotline@oig.doc.gov
National Oceanic and Atmospheric Administration
National Technical Information Service
                                                             More information
National Telecommunications and                              Visit www.oig.doc.gov to learn more about our
   Information Administration                                activities and subscribe to our RSS feed for website
U.S. Census Bureau                                           updates. We’re also on Facebook and Twitter. E-mail
U.S. Patent and Trademark Office                             website comments to oigweb@oig.doc.gov.
               U.S. Department of Commerce
                   Office of Inspector General



Semiannual Report to Congress

                             September 2013
d                 Office of Inspector General | Semiannual Report to Congress | September 2013




    table Of 

    cOntents




    01 FROM ThE INSPECTOR GENERAl
    02 TOP MANAGEMENT ChAllENGES FACING Th E DEPARTMENT
    06 OVERSIGhT AREAS

    06 DepartMent-WiDe ManaGeMent

    16 ecOnOMic DevelOpMent aDMinistratiOn

    20 ecOnOMics anD statistics aDMinistratiOn

    22 internatiOnal traDe aDMinistratiOn

    24 natiOnal Oceanic anD atMOspHeric aDMinistratiOn

    28 natiOnal telecOMMunicatiOns anD i nfOrMatiOn aDMinistratiOn

    30 uniteD states patent anD traD eMark Office

    34 aMerican recOvery anD r einvestMent act

    38   WORk IN PROGRESS
    42   STATISTICAl DATA
    50   REPORTING REqUIREMENTS
    52   ACRONyMS AN D ABBREVIATIONS
                                                                                          1




frOM tHe
inspectOr General


I am pleased to present the Department of Commerce Office of Inspector General’s
Semiannual Report to Congress for the 6 months ending September 30, 2013.

This report summarizes work we initiated and completed during this semiannual
period on a number of critical departmental activities. Over the past 6 months, our
office issued 11 audits, inspections, and responses to Congressional requests
addressing programs overseen by the Economic Development Administration,
National Oceanic and Atmospheric Administration, U.S. Patent and Trademark Office,
and the Department itself.

A summary of our proposed top management challenges facing the Department in
fiscal year 2014 appears on page 2. We will work closely with the Department and
Congress in the months ahead to meet these and other challenges facing Commerce
as it fulfills its complex mission.

Pursuant to the Whistleblower Protection Enhancement Act of 2012, OIG designated
a whistleblower protection ombudsman to educate Department employees about
prohibitions on retaliation for protected disclosures, as well as the rights and
remedies against retaliation for those who have made or are contemplating making a
protected disclosure. Training will be officially rolled out during the next semiannual
period and detailed in the March 2014 Semiannual Report to Congress.

We thank senior officials throughout the Department and members of Congress
and their staffs for their support of our work and for their receptiveness to our
recommendations to improve Commerce programs and operations. We also welcome
Secretary Penny Pritzker to the Department and look forward to forging a close
association with her.




TODD J. ZINSER

2   Office of Inspector General | Semiannual Report to Congress | September 2013




    tOp ManaGeMent
    cHallenGes facinG
    tHe DepartMent

    The Reports Consolidation Act of 2000 requires inspectors general to identify
    the top management challenges facing their departments. In June 2013, OIG
    issued to the Department and its agencies a memorandum that previewed
    what OIG would discuss in further detail in the upcoming fiscal year (Fy)
    2014 Top Management Challenges Facing the Department of Commerce.
    We identified five major challenges that represent cross-cutting issues with a
    focus on the President’s most important goals and longstanding Departmental
    management concerns. Our report will be issued in November 2013.



    1. strenGtHen cOMMerce infrastructure tO suppOrt tHe natiOn’s
       ecOnOMic GrOWtH

    As reflected in the President’s Fy 2014 proposed budget, the Department is a key player in the
    federal government’s efforts to stimulate economic growth and job creation. Several bureaus,
    which hold pivotal roles in providing the infrastructure for economic growth, face a variety of
    challenges. We have identified two key areas for management attention:

    •   promoting U.S. exports while protecting national security interests

    •   enhancing economic growth through intellectual property and wireless initiatives

    2. strenGtHen OversiGHt Of nOaa prOGraMs tO MitiGate pOtential
       satellite cOveraGe Gaps, aDDress cOntrOl Weaknesses in
       accOuntinG fOr satellites, anD enHance fisHeries ManaGeMent

    NOAA plays a critical role in protecting life and property, as well as supporting national economic
    vitality. To achieve these missions, NOAA must overcome the challenges associated with the
    acquisition, accounting, and operation of weather satellites and has to balance the competing
    interests concerning marine fisheries. We have identified three key areas for management attention:

    •   enhancing weather satellite development and mitigating potential coverage gaps

    •   addressing material weakness over satellite accounting

    •   enhancing fisheries management

    3. cOntinue enHancinG cybersecurity anD ManaGeMent Of infOrMatiOn
       tecHnOlOGy investMents

    Pervasive and sustained cyber attacks against the United States could have a devastating effect
    on federal and nonfederal systems, disrupt the operations of governments and businesses, and
    impact the lives of the American people. The President’s Fy 2014 budget requires that agencies
                                                                                  Top Management Challenges Facing the Department     3




eliminate duplicative or low-value IT investments while expanding efforts to counter current and
evolving cyber threats. Accordingly, we identify five areas for management attention:

•	 establishing a robust capability to respond to cyber incidents

•	 continuing sustainable implementation of enterprise cybersecurity initiatives

•	 preserving the Chief Information Officer’s oversight responsibility of satellite-related
   IT investments

•	 continuing vigilant oversight of IT investments

•	 maintaining momentum in consolidating commodity IT1 to cut costs

4. eXercise strOnG prOJect ManaGeMent cOntrOls Over 2020 census
   planninG tO cOntain cOsts

The decennial census is a highly visible, decade-long program that requires extensive planning
and testing. The Census Bureau has promised bold design changes for the 2020 Census,
seeking to reduce per household costs (on an inflation-adjusted basis) to an amount lower than
the 2010 Census. To reach this goal, the Bureau must complete research and testing early
enough in the decade to plan and build the necessary infrastructure for the projected workload
and workforce. The Bureau will be making key 2020 Census design decisions during Fys
2015–16 that drive the program’s methodology, quality, and cost. As a result of our 2010 Census
oversight, we noted challenges the Census Bureau faces to innovate its 2020 Census design.
The Bureau has partially addressed some of our recommendations; however, more work remains.
We have identified two key areas for management attention:

•	 ensuring timely design decision making

•	 focusing on human capital management, timely research, and testing implementation

5. cOntinue tO fOster a culture Of ManaGeMent accOuntability tO
   ensure respOnsible spenDinG

As the government experiences an extended period of tightened budgets, it is imperative to foster
a culture of management accountability. OIG operates a complaint hotline for information about
alleged wrongdoing, misconduct, or mismanagement. OIG’s determination to audit, investigate, or
provide the complaint information to Departmental or bureau management for appropriate action
helps to instill a culture of ethical conduct and ensure that spending is appropriate, complies
with laws and regulations, and promotes investments with long-term benefits. In response to
complaints about mismanagement of appropriated funds within NOAA’s National Weather
Service (NWS) in 2010 and 2011, the Department conducted an internal inquiry that highlighted
mismanagement of budgetary resources throughout NWS. While the Department and NOAA have
taken steps to address the findings identified in the internal inquiry, additional work is needed. In
addition, the lack of centralized financial reporting capability impedes the Department’s ability to
oversee and manage Department-wide financial activities. While the Department has developed
plans to replace legacy systems, significant financial reporting challenges remain. Our audits
also indicate that reducing the use of high-risk contracts remains a challenge for the Department.
Other priorities include stricter oversight of the Department’s annual acquisition of approximately
$2.4 billion in goods and services. Finally, an additional challenge is to strengthening bureaus’

1 According to OMB, commodity IT includes “IT infrastructure (data centers, networks, desktop computers and mobile devices);
enterprise IT systems (e-mail, collaboration tools, identity and access management, security, and web infrastructure); and business
systems (finance, human resources, and other administrative functions).” See Office of Management and Budget, August 8, 2011.
Chief Information Officer Authorities, Memorandum M-11-29. Washington, DC: OMB, 2.
4   Office of Inspector General | Semiannual Report to Congress | September 2013




    oversight of Departmental programs that award grants or cooperative agreements due to the
    potential for misuse of federal funds by award recipients. We have identified five key areas for
    management attention:

    •   responding to concerns of mismanagement and ethical violations

    •   implementing stricter controls over funds

    •   modernizing the enterprise financial management system to strengthen financial oversight

    •   strengthening controls over high-risk contract actions and developing the acquisition workforce

    •   addressing grant management issues
DepartMent-WiDe ManaGeMent



The u.s. Department of commerce works to help American
companies become more innovative and successful at home and more
competitive abroad. It creates the conditions for economic growth and
opportunity by promoting innovation, entrepreneurship, competitiveness,
and stewardship.

The Department accomplishes its mission by providing national and
local weather services; developing key economic and demographic data
(including the decennial census); advancing technological and scientific
innovation; protecting and restoring environmental resources; promoting
international trade; and supporting local, regional, and national economic
development. These activities affect U.S. business and industry daily and
play a critical role in the nation’s economic well-being.
                                                                            Department-Wide Management   7




cOMpleteD WOrks (by OversiGHt area)

During this reporting period, OIG completed 11 audits, inspections, and responses to
Congressional requests, and testified before Congress once.




                8




                                            2
                                                              1                        1
         Department­widea                 NOAA               EDA                     USPTO



a   Department-wide completed works include 1 testimony.


internal cOntrOls fOr cOMMerce purcHase carD transactiOns neeD
tO be strenGtHeneD (OiG-13-025-a)

In September 2011, we began an audit on transactions initiated during fiscal year (Fy) 2011
to determine whether the Department had adequate transaction-level internal controls over the
use of purchase cards. During this time period, Department staff used 4,515 purchase cards for
265,423 transactions, spending $118,628,549.

We selected approximately 850 transactions for testing through a stratified random sample,
ensuring that transactions from all bureaus were included and that results could be projected to
the entire Department. We also projected bureau-specific results for the Census Bureau, NOAA,
and NIST, because those bureaus represented the highest volume users of purchase cards.

Our audit found that transaction documentation was incomplete, procedural issues existed,
transactions were improper or questionable, and cardholders and approving officials did not
obtain annual refresher training.

We recommended that the Department’s Chief Financial Officer and Assistant Secretary for
Administration

•	 direct cardholders to document purchase requests and approvals, budget approvals, and bona
   fide government needs for purchase card transactions;

•	 strengthen the monthly purchase card reconciliation process;

•	 ensure that purchases are equitably distributed among qualified vendors and that agencies
   determine the most efficient and effective method of obtaining services (e.g., insourcing versus
   outsourcing, purchase cards versus other procurement tools);
8                              Office of Inspector General | Semiannual Report to Congress | September 2013




                               •	 develop policies and procedures to ensure that purchase card files are retained when
                                  cardholders or approving officials end employment with the Department or otherwise
                                  discontinue their functions as cardholders or approving officials;

                               •	 improve training—as well as tracking and monitoring—for cardholders and approving officials
                                  on regulations over the use of purchase cards;

                               •	 ensure that the Department’s Electronic Transmission of Personally Identifiable Information
                                  policy is consistent with the Commerce Acquisition Manual (CAM); and

                               •	 ensure that the CAM’s record retention requirements expressly state the National Archives and
                                  Records Administration requirements.

                                                                      MOnitOrinG Of ObliGatiOn balances neeDs
Obligations                                                           strenGtHeninG (OiG-13-026-a)

An obligation is the amount of an order placed, contract              As of December 31, 2011, the Department’s unliquidated
awarded, or service purchased during an accounting                    obligations exceeded $9.9 billion. Of this amount, $147 million
period, which requires future payment.                                in obligations were recorded in fiscal year 2006 or earlier. This is
                                                                      particularly important because susceptibility for misuse increases
An unliquidated obligation is an amount of money that                 as the obligation ages.
has been designated for a specific purpose but has not
been disbursed.                                                       We reviewed the Department’s unliquidated obligation balances
                                                                      as of December 31, 2011, to assess whether the Department
Obligations must be liquidated within certain time                    and bureaus have adequate controls over the management and
limits. If unobligated funds are not used for their original          closeout of unliquidated obligations. We examined a sample of
purpose within these time frames, the agency is required              obligations with balances as of December 31, 2011, and identified
to release the funds for other allowable purposes or,                 49 obligation balances, totaling $18.4 million, that could have
depending on restrictions placed by Congress, return the              been deobligated. NOAA and NTIA incurred 70 percent of the
money to the U.S. Treasury.                                           Department’s unliquidated obligations. More than 60 percent of the
                                                                      unliquidated obligations were for grant funding.

                                                              Specifically, we found that original obligation balances could not
                               be verified; accounting records did not accurately reflect Department obligations; bureaus did not
                               know the status of obligation balances; obligation balances as of December 31, 2011, could not
                               be verified; and bureaus improperly liquidated contract obligations.

                               Our findings included monetary benefits to the Department—in the form of estimated obligations
                               that needed to have been deobligated by December 31, 2011—in the amount of $159 million.

                               We recommended that the Office of the Secretary

                               •	 develop a Department-wide initiative related to the timely liquidation, deobligation, and closure
                                  of unneeded open obligations;

                               •	 enhance policies and procedures to include specific, comprehensive guidance for the
                                  consistent monitoring and deobligation of unliquidated obligation balances, as well as ongoing
                                  Departmental oversight;

                               •	 develop guidance and training on the quarterly verification of open obligations;

                               •	 investigate each specific instance noted in the report where contract obligations may have
                                  been liquidated against an incorrect fiscal year funding source or charged to the wrong
                                  account; and

                               •	 provide training on the proper methodology for funding invoices of multiple-year contracts.
                                                                             Department-Wide Management                              9




letter tO r epresentative issa reGarDinG Open anD u niMpleMenteD
recOMMenDatiOns (OiG-13-028-i)

In response to a Congressional request, the Inspector General provided information about
the status of OIG’s open and unimplemented recommendations. (Open recommendations are
unresolved; unimplemented recommendations have approved action plans, but the bureaus have
not yet completed their implementation of the recommendations.)

Of the 746 recommendations contained in OIG performance audit, evaluation, and inspection
reports issued January 1, 2007–June 21, 2013, 20 recommendations were still open and
163 were still unimplemented at the time of this letter to Representative Issa. (Not included
are classified or sensitive nonpublic recommendations, recommendations in financial statement
audits, or those addressed to specific nonfederal entities in connection with audits of financial
assistance awards.) The cumulative estimated cost savings associated with these open and
unimplemented OIG recommendations is $385.3 million. OIG’s top open and unimplemented
recommendations concern Departmental contracts, Departmental IT security, and NOAA
environmental satellite programs.

status Of DepartMental actiOns tO cOr rect natiOnal WeatHer service
MisManaGeMent Of funDs (OiG-13-029-i)

In June 2012, the U.S. Senate Appropriations Subcommittee for
Commerce, Justice, Science, and Related Agencies asked OIG                 Mismanagement of National Weather
to review materials and findings from the Department’s May 2012
Internal Inquiry into Alleged Mismanagement of Funds Within the
                                                                           Service (NWS) Funds
National Weather Service report. We reviewed the actions taken             In 2010 and 2011, the Department and OIG received
by the Department and NOAA to address identified weaknesses                a series of complaints about mismanagement of funds
to determine the adequacy of such actions in addressing issues             within NWS. In May 2012, the Department issued
arising from NWS’s Fy 2012 reprogramming requests. Our review              a report that found—in addition to the unauthorized
compared actions against what was directed in the separate                 reprogramming of NWS funds in Fys 2010 and 2011—
May 2012 decision memorandums from then-Deputy Secretary                   significant management, leadership, budget, and financial
Rebecca Blank and then-Under Secretary of Commerce for                     control problems at NWS that resulted in Antideficiency
Oceans and Atmosphere Jane lubchenco.                                      Act violations.

Our review found that the Department and NOAA have taken                   later that month, then-Deputy Secretary Rebecca Blank
steps to address the findings identified in the Department’s internal      and then-Under Secretary of Commerce for Oceans
inquiry, some of which were still ongoing as of our March 2013             and Atmosphere Jane lubchenco issued separate
end of fieldwork. Since May 2012, the Department and NOAA                  decision memoranda, which required specific actions for
completed 15 out of 20 of their planned action items. We noted             correcting the conditions leading to the report’s findings.
that the Department and NOAA need to take additional steps to              These decision memoranda required Departmental
ensure that budget formulation processes at line offices and the           actions on 20 distinct activities, including audits,
bureau are transparent and accountable, provide training to certain        organizational reporting adjustments, and changes to
NOAA officials, and review NOAA’s financial management team.               budget formulation and execution processes.

We recommended that the Department’s Chief Financial Officer
take appropriate action to

•	 issue an informational notice alerting Departmental staff to the OIG online hotline complaint
   process;

•	 ensure, for future inquiries, that Departmental offices are aware of the requirement to obtain
   and keep documentation supporting data requests and conclusions reached;

•	 provide a training module for NOAA managers and employees on reporting complaints of
   fraud, waste, abuse, and mismanagement at NOAA;
10                             Office of Inspector General | Semiannual Report to Congress | September 2013




                               •	 evaluate the impact of Departmental senior executive training on the overall proficiency related
                                  to managing human, financial, and informational resources; and

                               •	 document an analysis of NOAA’s financial management leadership that addresses improper
                                  past practices and how the current leadership team can provide effective financial
                                  management direction.

                               results of investigation—nWs reprogramming of funds

                               Subsequent to the issuance of the Department’s May 2012 inquiry report, OIG also received
                               a hotline complaint alleging that unauthorized reprogramming at NWS had continued despite
                               ongoing administrative inquiries and alleged knowledge of unauthorized reprogramming by
                               NOAA leadership. Based on this complaint—and the Department’s and NOAA’s May 2012
                               report covering only Fys 2010 and 2011—we conducted an investigation focusing on whether
                               senior leadership within NOAA, including NWS, had knowledge of unauthorized reprogramming,
                               and whether unauthorized reprogramming occurred beyond the period covered by the joint
                               Department–NOAA inquiry. We interviewed 20 NOAA officials, including the former NOAA
                               Chief Financial Officer and current Chief of Resources and Operations Management. The former
                               Assistant Administrator for NWS had retired and declined to be interviewed.

                               Our investigation did not find evidence that NOAA senior leadership had specific knowledge that
                               unauthorized reprogramming activities were occurring within NWS at the time these activities
                               occurred. however, both this investigation and the May 2012 Department–NOAA report
                               preceding it identified a series of events and circumstances that should have alerted senior NWS
                               and NOAA officials at the time these activities were occurring. Testimonial evidence reflects that
                               the then-NWS Assistant Administrator, the NWS Deputy Assistant Administrator, and the then-
                               NOAA Chief Financial Officer were made aware of funding concerns, specifically involving the
                               Advanced Weather Interactive Processing System (AWIPS) program (activities later found to
                               constitute unauthorized reprogramming). These programs were, over several years, consistently
                               behind schedule and faced with budget issues well known in NWS and NOAA, but senior
                               leaders failed to take appropriate action. We concluded that senior leaders’ failure to address
                               concerns repeatedly voiced to them by subordinate program managers allowed unauthorized
                               reprogramming activities to occur at NWS over multiple fiscal years. Our report of investigation
                               was referred to NOAA on September 30, 2013, for appropriate action.

                                                                      classifieD i nfOrMatiOn pOlicies anD practices
Executive Order 13526:                                                at tHe DepartMent Of cOMMerce neeD
                                                                      iMprOveMent (OiG-13-031-a)
Classified National Security Information
                                                                      The Reducing Over-Classification Act of 2010 (Public law
Executive Order 13526 prescribes a uniform system
                                                                      111-258) mandates that the inspector general of each department
effective June 27, 2010, for classifying, safeguarding,
                                                                      or agency with an officer or employee authorized to make original
and declassifying national security information. In addition
                                                                      classification decisions conduct two evaluations to promote the
to controlling the amount and duration of classification
                                                                      accurate classification of information. The first evaluation must be
and sharing classified information more freely, order
                                                                      completed by September 30, 2013; a second, to be completed by
13526 outlines mandatory training requirements for
                                                                      September 30, 2016, must review progress made after the first.
those with classification authority.
                                                                      Our audit found that the Department has generally adopted
The Department of Commerce is responsible for
                                                                      policies, procedures, rules, and regulations prescribed by order
both implementing national policies and establishing
                                                                      13526. however, we identified areas where the Department could
Departmental policies to ensure that such information is
                                                                      improve certain classification policies, procedures, rules, and
adequately safeguarded when necessary and appropriately
                                                                      regulations:
shared whenever possible. Its Office of Security is
responsible for overseeing all security management.
                                                                             Department-Wide Management   11




•	 The Department must ensure its policies and practices are consistent with federal
   requirements. Some documents are not being received and reviewed timely for declassification
   or destruction, and some derivative classification documents contained marking deficiencies.

•	 Oversight and internal control processes need improvement. Data reported in the Security
   Manager database were inaccurate, and poor inventory practices contributed to inaccurate
   information.

We recommended that the Director, Office of Security

•	 ensure that the document custodian take action to finalize the disposition of the three
   documents identified with expired declassification dates;

•	 require container custodians to be responsible for the classified documents in the container(s)
   they control;

•	 amend the Security Manual to align with the language in Executive Order 13526 regarding
   markings on derivatively classified documents, as well as update biennial training on
   classification markings for derivatively generated documents;

•	 improve the process for entering accurate data into Security Manager and develop guidance
   addressing the processes to be followed for annual classified information inventory reviews;
   and

•	 incorporate any relevant changes made as a result of recommendations in this report as part of
   the Office of Security’s annual reviews of the Department’s classified information.

letter tO tHe HOuse cOMMittee On science, space, anD tecHnOlOGy
reGarDinG tHe DepartMent’s use Of persOnal anD/Or alias e-Mail
accOunts tO cOnDuct Official GOvernMent business

In May 2012, the Inspector General responded to Representative lamar Smith and house
Committee on Science, Space, and Technology members with the results of OIG’s inquiry into
the Department’s use of personal and/or alias e-mail accounts to conduct official government
business. (For the purposes of this inquiry, personal e-mail account was defined as an account
established with a commercial internet service provider such as yahoo!, Gmail, or hotmail.
Unofficial alias e-mail account was defined as a Departmental email account where the name
or position of the account holder is not readily apparent. Official alias account was defined as a
Department-established e-mail account with a clearly identifiable account holder or purpose, such
as one using an individual account holder’s title or a group account holder’s function.)

With a focus on the Office of the Secretary, NOAA, and NIST, OIG’s inquiry examined various
policies and procedures and included interviews with senior leadership within the Department, the
Department’s Chief Information Officer (CIO), and other relevant CIO staff from the Department,
NIST, and NOAA.

OIG’s examination could not determine the extent to which personal e-mail accounts were used
by Commerce employees to conduct official business because the Department does not have the
technology, policies, or procedures in place to provide this information. however, OIG found the
following:

•	 Current Departmental policy and procedures regarding the use of personal or alias e-mail
   accounts for official business are only found in a “Remote Access Policy” and, therefore, not
   interpreted as a blanket policy.
12   Office of Inspector General | Semiannual Report to Congress | September 2013




     •	 There is a lack of consistent, adequate training regarding the use of personal or alias e-mail
        accounts for official business.

     •	 There is no record of adverse personnel action resulting from the use of personal or unofficial
        alias e-mail accounts for official business.

     •	 Senior Departmental officials have neither encouraged the use of personal or unofficial alias
        email for official business nor used personal or unofficial alias e-mail for official business,
        except for incidental instances.

     To ensure proper records management of all e-mails containing official business, and to facilitate
     transparency and oversight, OIG recommended that the Department’s CIO, in coordination with
     the CIOs of each bureau

     •	 finalize the pending policy revision to ensure the Department has a clear, comprehensive policy
        prohibiting the use of personal e-mail for conducting official business; and

     •	 clearly communicate Commerce policies regarding the use of personal e-mails to all
        Commerce employees (e.g., through initial and annual refresher IT training presentations).

     cOnGressiOnal testiMOny (OiG-13-023-t)

     On April 11, 2013, the Inspector General testified before the Senate Appropriations’
     Subcommittee on Commerce, Justice, Science, and Related Agencies about the Department’s
     $11.7 billion Fy 2014 budget request. he noted that the Department plays a pivotal role in
     implementing the President’s initiatives for economic recovery and job creation and, like other
     federal agencies, faces significant challenges in the upcoming year. After summarizing the
     management and performance challenges facing the Department, he focused on challenges
     specifically related to NOAA satellites, 2020 Census, U.S. Patent and Trademark Office, and
     Departmental operational controls and oversight.

     auDits Of cOMMerce funD recipients by nOnfeDeral
     inDepenDent auDitOrs (revieWeD by OiG DurinG tHe 6 MOntHs
     enDinG septeMber 30, 2013)

     In addition to undergoing OIG-performed audits, certain recipients of Department of Commerce
     financial assistance or cost-reimbursable contracts are periodically examined by state and local
     government auditors and by independent public accountants. OMB Circular A-133 establishes
     requirements for most of these audits. For-profit organizations audited in accordance with
     Government Auditing Standards (GAS) include those that receive NIST awards from both the
     Technology Innovation Program (TIP) and the Measurement and Engineering Research and
     Standards (MERS) program. Some for-profit organizations are audited in accordance with other
     specific audit guides. These include Advanced Technology Program awards that are audited in
     accordance with the NIST Program-Specific Audit Guidelines for Advanced Technology Program
     Cooperative Agreements, as well as BTOP awards that are audited in accordance with the NTIA
     Program-Specific Audit Guidelines for the Broadband Technology Opportunities Program.

     We examined 105 audit reports during this semiannual period to determine whether they
     contained audit findings related to departmental programs. For 52 of these reports, the
     Department acts as an oversight agency and monitors the audited entity’s compliance with OMB
     Circular A-133, Government Auditing Standards, or program-specific reporting requirements. The
     other 53 reports cover entities for which other federal agencies have oversight responsibility. We
     identified 15 reports with material findings related to the Department.
                                                                                              Department-Wide Management   13




report category                              OMb a-133 audits                program-specific                      total
                                                                                audits

Pending Review (April 1, 2013)                         16                             3                             19
Received                                             117                            25                             142
Examined                                               86                           19                             105
Pending Review (March 31, 2013)                        47                             9                             56


The following table shows a breakdown by bureau of approximately $855 million in Department
funds audited through the A-133 or program-specific guidelines.


    agency                                                                                                 funds

    Census Bureau                                                                                          268,986
    Economic Development Administration                                                                19,761,353
    International Trade Administration                                                                       85,554
    Minority Business Development Administration                                                                      0
    National Institute of Standards and Technologya                                                    11,669,864
    National Oceanic and Atmospheric Administration                                                      4,421,723
    National Telecommunications and Information Administrationb                                       113,338,682
    Multi-bureau                                                                                      705,123,540
    total                                                                                             854,669,702
a   Includes $8,363,222 in program-specific audits; A-133 audits account for the remaining amount of $3,306,642.
b   Includes $35,006,706 in program-specific audits; A-133 audits account for the remaining amount of $78,331,976.



The audits identified a total of $4,752,629 in the federal share of questioned costs, $3,847,014
in federal unsupported costs and $3,215,149 in funds to be put to better use. In most reports,
the subject programs were not considered major programs; thus, the audits involved limited
transaction and compliance testing against laws, regulations, and grant terms and conditions. The
15 reports with departmental findings are listed in table 7-a on page 49.

results Of nOnfeDeral auDits fOr tHe 6-MOntH periOD enDinG June 30,
2013 (OiG-13-030-M)

OIG’s report contained an analysis of findings identified in nonfederal audit reports from January 1
through June 30, 2013, noted trends in the types of findings reported and summarized findings by
Departmental program.

final tWO MultiMilliOn DOllar Guilty pleas in price-fiXinG case

During this semiannual reporting period, two Japanese shipping companies pled guilty and were
convicted for their roles in a conspiracy to fix certain fees in the provision of freight forwarding
services for air cargo shipments from Japan to the U.S. between September 2002 and November
2007. The two companies were fined over $15.4 million and $3.5 million, respectively, and each
was placed on probation for 24 months. During this reporting period we also confirmed another
shipping company had been ordered to pay restitution in excess of $10.4 million for violations
in this case. As a result of this multiyear investigation, a total of 16 companies were convicted
14   Office of Inspector General | Semiannual Report to Congress | September 2013




     and paid criminal fines totaling more than $120 million for conspiring to suppress and eliminate
     competition by fixing certain components of freight forwarding service fees (i.e., fuel surcharges
     and security fees) charged to customers for services provided in connection with shipments of air
     cargo to the U.S. The investigation was conducted in conjunction with the Department of Justice’s
     Antitrust Division–National Criminal Enforcement Section and the Federal Bureau of Investigation’s
     Washington Field Office. Additional details have been provided in the past four Semiannual
     Reports to Congress.

     DepartMental eMplOyee DisciplineD fOr tiMe anD attenDance abuse

     In April 2013, the Department deducted over 130 hours of annual, sick, and compensatory
     leave from an employee’s leave balance after our investigation determined the employee failed to
     record it on time sheets over a 7-month period. The leave was valued at over $8,200. Moreover,
     we found the employee’s responses during the interview with us lacked candor and credibility.
     The U.S. Department of Justice declined criminal prosecution in lieu of administrative action. The
     Department corrected the employee’s leave balance and issued the employee a “last chance
     letter” for misconduct.
ecOnOMic DevelOpMent
aDMinistratiOn



The u.s. economic Development administration’s mission is to
lead the federal economic development agenda by promoting innovation
and competitiveness, preparing American regions for growth and
success in the worldwide economy. Its investment policy is designed
to establish a foundation for sustainable job growth and the building
of durable regional economies throughout the United States. This
foundation builds on two key economic drivers: innovation and regional
collaboration.
                                                                       Economic Development Administration   17




MalWare infectiOns On eDa’s systeMs Were OverstateD anD tHe
DisruptiOn Of it OperatiOns Was unWarranteD (OiG-13-027-a)

In December 2011, the Department of homeland Security (DhS) notified the Department of
Commerce that it detected a potential malware infection within the Department’s systems. The
Department determined the infected components resided within IT systems operating on the
herbert C. hoover Building (hChB) network and informed EDA and another agency of a potential
infection in their IT systems.

In January 2012—believing it had a widespread malware infection—EDA requested that the
Department isolate its IT systems from the hChB network. This action resulted in the termination
of EDA’s operational capabilities for enterprise e-mail and website access, as well as regional
office access to database applications and information residing on servers connected to the
hChB network. Given the Department’s limited incident response capabilities and the perceived
extent of the malware infection, the Department and EDA decided to augment the Department’s
incident response team. Additional incident response support was provided by DhS, the
Department of Energy, NIST, and the National Security Agency, as well as a cyber security
contractor. In early February 2012, EDA entered into an agreement with the Census Bureau to
provide interim e-mail capability, Internet access to EDA staff, and Census Bureau surplus laptops
for EDA staff.

In accordance with the Federal Information Security Management Act of 2002 (FISMA), we
evaluated EDA’s IT security program and the events surrounding the December 2011 cyber
incident response and recovery efforts. We found that (1) EDA based its critical cyber-incident
response decisions on inaccurate information, (2) deficiencies in the Department’s incident
response program impeded EDA’s incident response, and (3) misdirected efforts hindered EDA’s
IT system recovery. Because of a series of missteps in responding to this incident, a common
malware infection originally found on two EDA computers was portrayed as a widespread
cyber attack on its IT infrastructure. This resulted in a prolonged disruption of normal business
operations and the unnecessary spending of more than $2.7 million for its recovery activities.

We recommended that EDA’s Deputy Assistant Secretary

•	 identify EDA’s areas of IT responsibility and ensure the implementation of required security
   measures;

•	 determine whether EDA can reduce its IT budget and staff expenditures, through the increased
   efficiencies of EDA’s involvement in the Department’s shared services; and

•	 ensure that EDA does not destroy additional IT inventory that was taken out of service as a
   result of this cyber incident.

We also recommended that the Department’s Chief Information Officer

•	 ensure the Department’s Computer Incident Response Team (DOC CIRT) can appropriately
   and effectively respond to future cyber incidents,

•	 ensure incident response procedures clearly define DOC CIRT as the incident response
   coordinator for the bureaus relying on DOC CIRT’s incident response services, and

•	 ensure that DOC CIRT management has proper oversight and involvement in cyber incidents
   to ensure that required incident response activities take place.
18   Office of Inspector General | Semiannual Report to Congress | September 2013




     bill fOr cOllectiOn issueD tO eDa Grantee fOr cOnflicts Of interest,
     seniOr eDa Official cOunseleD fOr lack Of OversiGHt, anD neW
     prOceDures instituteD fOr Grants ManaGeMent fOr all eDa eMplOyees

     In April 2010, we initiated an investigation into multiple allegations of conflicts of interest by an
     EDA grantee as well as into EDA’s management and oversight of the award. Our investigation
     found that the president of the awardee organization had a personal financial interest in another
     company associated with the grant, in violation of EDA policy. The president received monetary
     benefits despite several EDA employees and officials being aware of the apparent conflict of
     interest. In addition, the grantee spent award funds in a different area of the state than originally
     specified in the grant and provided false statements to EDA about it. As a result, the organization
     improperly received supplemental funding. We also established that the awardee violated several
     stipulations in the Special Award Conditions, which caused EDA to misallocate a considerable
     portion of federal share funds. The U.S. Department of Justice declined criminal prosecution in lieu
     of administrative action. EDA subsequently agreed to make a final determination of the disallowed
     amounts and established a debt of over $485,000 in accordance with 15 C.F.R. Part 19. The
     agency formally counseled a senior EDA official regarding the poor management and inadequate
     oversight of the grant funds. EDA also revised its policy and operations manual to address the
     issues raised by our investigation.
ecOnOMics an D statistics
aDMinistratiOn



The economics and statistics administration analyzes economic
activity, formulates policy options, and produces a major share of the
U.S. government’s economic and demographic statistics. ESA has one
constituent operating unit and two primary operating units.

Office of the Chief Economist—Provides the Department with
expertise on key economic forces affecting the U.S. economy,
delivering timely, relevant, and credible economic analysis and advice to
government leaders and the public.

Census Bureau—Publishes a wide variety of statistical data about the
nation’s people and economy, conducting approximately 200 annual
surveys in addition to the decennial census of the U.S. population and
the quinquennial census of industry.

Bureau of Economic Analysis—Prepares, develops, and interprets
national income and product accounts (summarized by the gross
domestic product), as well as aggregate measures of international,
regional, and state economic activity.
                                                                      Economics and Statistics Administration   21




census eMplOyee reMOveD fOr MiscOnDuct

In August 2010, a state agency notified our office of possible time and attendance (T&A)
fraud committed by a Census employee who was also employed by the state in question.
A comparison of T&A records determined that the individual had claimed compensation for the
same time periods from both agencies which, coincidently, were physically located within blocks
of each other. In September 2010, the individual was terminated by the state agency, in part for
the individual’s double billing. In February 2012, our office referred this matter to the Census
Bureau to determine whether this person’s termination from state employment would impact
the individual’s Census Bureau employment. The Census Bureau terminated the individual in
September 2013 for falsifying official Census Bureau documents.

fOrMer census cOntractOr reacHes settleMent in civil false
claiM actiOn

In April 2013, a former U.S. Census Bureau contractor organization, along with its parent
company, agreed to settle a civil false claims action for over $645,000 following an extensive
investigation into numerous violations of the Federal Acquisition Regulation on several Census
Bureau contracts. The settlement, negotiated by the U.S. Attorney’s Office for the Eastern District
of Virginia, was reached following an investigation we initiated in 2005 into seven indefinite
delivery, indefinite quantity contracts for information technology services. The investigation
established the contractor had mischarged subcontract labor hours not worked on a task order,
billed the Census Bureau for project hours not worked on task orders, overbilled prime contractor
labor hours on four task orders, charged hours worked prior to the start of one task order, billed
the Census Bureau for direct labor hours for services that were not supported with employee
timesheets, charged the Census Bureau for a labor category not supported by the timesheets or
monthly status reports, and did not credit back any overpayments to the government.
internatiOnal traDe
aDMinistratiOn



The international trade administration strengthens the
competitiveness of U.S. industry, promotes trade and investment, and
ensures fair trade through the rigorous enforcement of our trade laws
and agreements. ITA works to improve the global business environment
and helps U.S. organizations compete at home and abroad. ITA is
organized into four distinct but complementary business units.

U.S. and Foreign Commercial Service—Promotes U.S. exports,
particularly by small- and medium-size enterprises, and provides
commercial diplomacy support for U.S. business interests around
the world.

Manufacturing and Services—Strengthens U.S. competitiveness
abroad by helping shape industry-specific trade promotion policy.

Market Access and Compliance—Assists U.S. companies
and helps create trade opportunities through the removal of market
access barriers.

Import Administration—Enforces U.S. trade laws and agreements
to prevent unfairly traded imports and to safeguard the competitive
strength of U.S. businesses.
                                                                          International Trade Administration   23




tWO ita eMplOyees cOunseleD fOr MiscOnDuct

In April 2013, following our investigation, two ITA employees were counseled for violating the
Standards of Ethical Conduct for Employees of the Executive Branch. We found that a senior
official permitted a subordinate employee to participate on an evaluation committee for a contract
without the proper written authorization. The subordinate was employed by one of the potential
contractors during the preceding year, which would have required documented authorization to
participate in any dealings between the government and the subordinate’s former employer. An
attorney from the contract law division of the Department’s Office of General Counsel provided a
presentation on government contracting ethics to staff in that particular office.
natiOnal Oceanic anD
atMOspHeric aDMinistratiOn



The National Oceanic and Atmospheric Administration mission is to
understand and predict changes in Earth’s environment, as well as conserve
and manage coastal and marine resources to meet our nation’s economic,
social, and environmental needs. NOAA does this through six line offices.

National Environmental Satellite, Data, and Information Service—
Observes the environment by operating a national satellite system.

National Marine Fisheries Service—Conducts a program of
management, research, and services related to the protection and rational use
of living marine resources.

National Ocean Service—Provides products, services, and information
to promote safe navigation, support coastal communities, sustain marine
ecosystems, and mitigate coastal hazards.

National Weather Service—Reports the weather of the United States and
provides weather forecasts and warnings to the general public.

Office of Oceanic and Atmospheric Research—Conducts research
related to the oceans and Great lakes, the lower and upper atmosphere,
space environment, and the earth.

Office of Program Planning and Integration—Develops and
coordinates NOAA’s strategic plan, supports organization-wide planning
activities, guides managers and employees on program and performance
management, and integrates policy analysis with decision making.
                                                               National Oceanic and Atmospheric Administration                        25




results Of OiG Online survey Of fisHery
ManaGeMent cOuncil MeMbers anD staff                                          National Marine Fisheries Service
(OiG-13-022-i)
                                                                              (NMFS) and Fishery Management
As part of our continuing oversight of fisheries management at                Councils (FMCs)
the National Marine Fisheries Service (NMFS), OIG sent a survey
to 292 Fishery Management Council members and staff. The                      NMFS is responsible for the management and
purpose of the survey was to obtain an FMC perspective on fishery             conservation of living marine resources within the
regulatory requirements, rulemaking, and improvements in fisheries            statutorily prescribed areas in the U.S. Exclusive
management. Seventy nine percent of survey recipients                         Economic Zone, the area extending from 3 to 200
 (235 persons) responded.                                                     nautical miles offshore.

We asked FMC members and staff about interactions with NMFS                   Eight regional FMCs, established by the Magnuson-
and with the fishing industry and nongovernment organizations,                Stevens Fishery Conservation and Management Act,
regulatory requirements, FMC operations and training, and FMC                 partner with NMFS, state agencies, and other federal
compliance with the code of conduct.                                          agencies to develop fisheries management strategies
                                                                              and rules for the commercial and recreational fishing
In general, responses to the survey were positive. Most survey                industries.
participants were satisfied with their interactions with NMFS, as
well as with the fishing industry and nongovernment organizations.
Suggestions to improve collaboration between NMFS and FMCs
mainly involved occurrence and methods of communication, participation from NOAA’s Office of
the General Counsel, and outreach and transparency to stakeholders.


survey respondents by employer or section represented




                         7%
            21%                  8%
                                                       NOAA NMFS
                                                       Other federal agency
                                                       State or local government
       9%                                              For-proﬁt business
                                                       Nongovernmental (or not-for-proﬁt) organization
                                  36%
                                                       Other
             19%




FMC members and staff also believed that FMCs and NMFS were complying with the Magnuson-
Stevens Fishery Conservation and Management Act and the FMC code of conduct. Nonetheless,
when asked to select the “top three problems in the fishery management plan development and
amendment processes,” respondents chose complexity of the process, timeliness, and public
distrust.

Finally, less than a third of survey respondents rated FMC training as effective (most selected
“Neutral” or “Don’t know” for questions regarding training). When asked about successful
practices at their FMCs, respondents cited public participation, consideration of public input,
and outreach and public education.
26                              Office of Inspector General | Semiannual Report to Congress | September 2013




                                A summary of our initial report—NOAA Needs to Continue Streamlining the Rulemaking Process
                                and Improve Transparency and Consistency in Fisheries Management (OIG-13-011-I)—appears
                                on page 27 of the March 2013 Semiannual Report to Congress.

                                cOMpreHensive MitiGatiOn apprOacHes, strOnG systeMs enGineerinG,
                                anD cOst cOntrOls are neeDeD tO r eDuce risks Of cOveraGe Gaps in
                                GeOstatiOnary OperatiOnal envirOnMental satellite-r s eries
                                (OiG-13-024-a)

                                The GOES-R program is a mission-critical acquisition and development effort with a life-cycle
                                cost of $10.9 billion. The program engages multiple contractors and close management attention
                                is required, as it prepares for its integration and test phase. The increasing risk associated with
                                meeting key milestones in preparation for the first satellite’s launch readiness date of October
                                2015 necessitated our review. Our audit sought to assess (1) the adequacy of contract
                                management and administration and (2) the effectiveness of management’s direction, monitoring,
                                and collaboration for development of select components of the GOES-R program.

                                We found that:

                                •	 NOAA needs to develop a comprehensive plan to mitigate the risk of potential launch delays
                                   and communicate to users and other stakeholders changes that may be necessary to maintain
                                   the first GOES-R satellite’s launch readiness date.

                                                                       •	    Program systems engineering has been strengthened;
NOAA’s National Environmental                                                however, early in system development, it contributed to ground
                                                                             system schedule compression and increased costs.
Satellite, Data and Information Service
(NESDIS)                                                               •	    NOAA needs to ensure NASA’s evaluation of contractors’
                                                                             proposals and subsequent plans is effective in assessing
One of the primary functions of NESDIS is to acquire and                     technical readiness to reduce delays and cost increases.
manage the nation’s operational environmental satellites.
One type of satellite NESDIS operates is a geostationary               •	    NOAA lost the opportunity to negotiate on significant costs for
operational environ-mental satellite (GOES)—which orbits                     ground system contract changes because it did not finalize
approximately 22,300 miles above Earth, producing images                     these changes in a timely manner.
every 15 minutes. These satellites provide cloud, land, and
ocean temperatures; monitor sun activities; and assist with            OIG identified over $8.8 million in questioned costs and over
search and rescue activities.                                          $105.9 million in funds to be put to better use.

NOAA, in conjunction with the National Aeronautics and                 We recommended that the NOAA Deputy Under Secretary
Space Administration, is developing the next generation                for Operations
of GOES satellites known as the GOES-R Series of four
satellites (GOES-R, -S, -T and -U). The first satellite in the         •	    develop a comprehensive set of tradeoff approaches
series, GOES-R, is scheduled for launch in October 2015.                     to mitigate launch delays and communicate approaches to
                                                                             stakeholders and users,

                                                                       •	    keep stakeholders and users informed of tradeoffs made to
                                                                             meet the launch date, and

                                •	 direct NESDIS to report periodically on the adequacy of program systems engineering
                                   integration and NASA systems engineering support.

                                We also recommended that the NOAA Assistant Administrator for Satellite and Information
                                Services ensure that NASA:

                                •	 effectively validate contractors’ proposals and subsequent plans, to verify that technical
                                                               National Oceanic and Atmospheric Administration   27




    designs meet readiness requirements per NASA standards;

•	 modify contract award-fee structures to reduce award fee percentages and clearly articulate
   how scores should be adjusted based on the magnitude of cost overruns; and

•   adjust future award fees to be more commensurate with contractor performance.

We further recommended that the NOAA Deputy Under Secretary for Operations

•	 direct the development of a policy for managing undefinitized contract actions to definitize
   change orders in the shortest practicable time.
natiOnal telecOMMunicatiOns
anD infOrMatiOn aDMinistratiOn



The national telecommunications and information
administration serves as the executive branch’s principal adviser
to the President on domestic and international telecommunications
and information policy issues. NTIA manages the federal use
of the electromagnetic spectrum, provides grants for national
information and public broadcasting infrastructure projects, and
performs telecommunications research and engineering. It works to
enhance citizens’ access to cable television, telephone, and other
telecommunications services and educates state and local governments
and other entities on ways to use information technology and
telecommunications more effectively.
                                                      National Telecommunications and Information Administration   29




enGineerinG cOnsultant sentenceD fOr felOny tHeft Of ntia
Grant funDs

In November 2012, as reported in the March 2013 Semiannual Report to Congress, an
engineering consultant on an NTIA grant pled guilty to one felony count of violating
18 U.S.C. § 641, theft of public money. Our office initiated an investigation based on a
complaint from NTIA regarding suspicious activity observed on a 2009 Public Telecommunications
Facilities Program (PFTP) grant for the construction and operation of a radio station on a Navajo
reservation in the Shiprock, New Mexico, area. Our investigation determined that the engineering
consultant transferred nearly all of the $322,364 grant award to his personal bank account,
subsequently using much of it for personal purchases of dining, foreign and domestic travel,
a car, and assorted retail goods. OIG traced the stolen grant funds and seized over $130,000,
which was returned to the U.S. Treasury. In April 2013, the engineering consultant was sentenced
to time served and 3 years’ probation. he was also ordered to pay restitution of over $240,000
and forfeit the 2010 Infiniti G37 sedan he purchased with proceeds of the theft. The individual
has been suspended from doing business with the government.
uniteD states patent
anD traDeMark Office



The united states patent and trademark Office administers the
nation’s patent and trademark laws. Patents are granted and trademarks
registered under a system intended to provide incentives to invent,
invest in research, and commercialize new technology. USPTO also
collects, assembles, publishes, and disseminates technological
information disclosed in patents.
                                                                      United States Patent and Trademark Office                          31




usptO successfully iMpleMenteD MOst prOvisiOns Of tHe aMerica
invents act, but several cHallenGes reMain

Given the magnitude of changes required by the America Invents Act (AIA), OIG audited USPTO’s
effectiveness and progress in implementing them by the law’s multiple deadlines. We found that
USPTO implemented most provisions of the AIA on time but is overdue on several others.

Specifically, we noticed significant problems with the planning
and implementation of one IT system—the Patent Review                        leahy-Smith America Invents Act
Processing System—which was developed to meet AIA mandates
                                                                             (Public law 112-29)
and had cost overruns and limited functionality.
                                                                             The President signed the leahy–Smith America Invents
In addition, USPTO’s initial plan to assess training provided to
                                                                             Act (AIA) in September 2011. The AIA included
approximately 8,000 examiners on AIA-mandated changes was
                                                                             fundamental revisions to patent laws and USPTO
not sufficient and did not enable structured feedback from the
                                                                             practices, such as moving to a first-inventor-to-file
examiners.
                                                                             patent process, authorizing the agency to set and
                                                                             retain fees to ensure it has sufficient resources for its
Challenges also remain for the satellite office program. To
                                                                             operations, and establishing satellite offices.
increase the agency’s presence beyond USPTO’s Alexandria,
Virginia, headquarters, the AIA required the agency to establish
                                                                             USPTO has stated these changes would help
at least three satellite offices by September 16, 2014, subject
                                                                             it process applications faster, reduce the patent
to available resources. The agency opened the first of these
                                                                             application backlog, increase patent quality through
offices in Detroit in July 2012, but is unlikely to open the
                                                                             expedited patent challenges, and improve examiner
remaining offices by the September 16, 2014, deadline. USPTO
                                                                             recruitment and retention.
is required to report to Congress by September 30, 2014, on
the effectiveness of these offices, and the delayed openings will
                                                                             The new law, containing 37 provisions, mandated
affect the report.
                                                                             USPTO to implement 24 rules, 7 reports, and 4
                                                                             programs and the Small Business Administration and
Finally, we found that USPTO lacks implementation plans to
                                                                             the Government Accountability Office to issue one
complete the overall AIA implementation report and operate
                                                                             report each by September 16, 2015.
two AIA-mandated programs, the Pro Bono and Diversity of
Applicants programs.

We recommended that the Under Secretary of Commerce for
Intellectual Property and Director of the U.S. Patent and Trademark Office

•	 strengthen project planning and execution between the Office of the Chief Information Officer
   and the Patent Trial and Appeal Board (PTAB), and with other USPTO units;

•	 develop a multiyear plan that comprehensively addresses PTAB’s IT requirements to support its
   expanded responsibilities under the AIA;

•	 ensure the quality of processing first-inventor-to-file (FITF) applications by soliciting feedback
   from examiners after FITF training and after their first reviews of those applications, as well as
   by oversampling recently filed FITF applications;

•	 update Congress on the agency’s ability to establish satellite offices that meet AIA provisions
   and provide a plan for more satellite offices as resources become available;

•	 strengthen management of the satellite office program to develop a consistent and coordinated
   approach for establishing and operating satellite offices; and

•	 prepare a comprehensive plan for issuing the overall AIA implementation report that includes
   milestones for completing the remaining AIA reports and for operational oversight needed to
   carry out the Pro Bono and Diversity of Applicants programs.
32   Office of Inspector General | Semiannual Report to Congress | September 2013




     usptO iMpleMents annual etHics traininG fOr all patent eXaMiners
     fOllOWinG OiG investiGatiOn

     Our investigation found that a patent examiner committed ethics violations when the individual
     purchased stock from a company for which he was simultaneously processing and examining
     patent applications. In addition, we found several internal control weaknesses that could adversely
     affect the integrity of operations at USPTO, including limited ethics training for examiners at
     the levels of GS-12 and below. In this specific case, the patent examiner had not had ethics
     training for 4 years. We also learned that patent examiners below GS-13 are not required to file
     confidential financial disclosure reports, which would have required this particular individual to
     disclose the conflict of interest. Further investigation revealed that USPTO does not require patent
     examiners to self-identify potential conflicts of interest or affirmatively assert their independence
     for applications under their personal review. Based upon these findings, we referred this matter to
     the Commissioner for Patents in May 2013 for review and comment. USPTO agreed to implement
     annual ethics training for patent examiners at all grade levels. Our investigative findings in this
     case have been referred to USPTO.
aMerican recOvery
anD reinvestMent act



The Recovery Act—signed into law by President Barack Obama on
February 17, 2009—had three immediate goals: (1) create new jobs
and save existing ones, (2) spur economic activity and invest in long­
term growth, and (3) foster unprecedented levels of transparency and
accountability.

Five Department of Commerce bureaus—the Census Bureau, EDA,
NIST, NOAA, and NTIA—and OIG received $7.9 billion under the Act,
with $1.2 billion ultimately rescinded or transferred to other agencies. As
of September 30, 2013, the Department had obligated and disbursed
almost all of the approximately $5.9 billion remaining. (The disbursal
amount includes funding for the now-completed NTIA Digital Television
Converter Box Coupon Program.)
                                                                                                                    American Recovery and Reinvestment Act                      35




OiG recOvery act OversiGHt, february 2009–septeMber 2013

Funded by $16 million for proactive oversight of the Department’s Recovery Act programs and
activities, OIG has been evaluating whether agencies are using Recovery Act funds efficiently and
effectively and following up on complaints, including whistleblower reprisal allegations.

                 key activities                                                                                                 cumulative results

                 Published audit and evaluation reports                                                                                          22
                 Other work products (correspondence to Congress and the
                     Recovery Accountability and Transparency Board)                                                                              7
                 Audits/evaluations in progress                                                                                                   2
                 OIG recommendations for action, correction, or improvement                                                                      88
                 Recommendations implemented to take corrective action by
                     making improvements, reducing risk, or preventing waste                                                                 78
                 Investigations completed                                                                                                    25
                 Investigations in progress                                                                                                   4
                 Whistleblower reprisal allegations received                                                                                 13
                 Whistleblower reprisal allegations accepted                                                                                  7
                 Debarments and corporate compliance agreements implemented                                                                   0
                 Proactive training and outreach sessions held                                                                              129
                 Individuals trained                                                                                                      6,624
                 hours of training provided                                                                                               8,259


cOMMerce bureaus’ recOvery act ObliGatiOns anD DisburseMents
as Of septeMber 30, 2013

                        $4,500                                                                                                                100%    100%
                                                     97%             97%                                                100%
                                                                                                        98%
                                 $4,127
                                                                                                                                                      90%
                        $4,000
                                                                                      88%
                                                                                                                          Total Obligations
                                          82%
                                                                                                                          Total Disbursements         80%
                        $3,500
                                          $3,382                                                                          % Disbursed

                                                                                                                                                      70%
                        $3,000


                                                                                                                                                      60%
Dollars (in Millions)




                                                                                                                                                            Percent Disbursed




                        $2,500

                                                                                                                                                      50%

                        $2,000

                                                                                                                                                      40%


                        $1,500
                                                                                                                                                      30%


                                                                                                                                     $996 $996
                        $1,000
                                                                                                                                                      20%



                         $500
                                                    $360 $348                                                                                         10%
                                                                   $249 $240        $249 $220        $230 $226
                                                                                                                    $144 $144

                           $0                                                                                                                         0%
                                   NTIA               NIST           NIST            NOAA              NOAA            EDA              Census
                                                   Construction    Research       Procurement,       Operations,
                                                                  and Services   Acquisition, and   Research, and
                                                                                  Construction        Facilities 
36   Office of Inspector General | Semiannual Report to Congress | September 2013




     btOp suspenDs anD reDuces aWarD tO Grantee anD requires tHe
     cOMpany tO reOrGanize

     In June 2012, we initiated an investigation of alleged violations of an Arizona grantee who received
     a $39.3 million BTOP award from NTIA. The alleged scheme involved using grant funds to pay
     for unauthorized and unreasonable expenses unrelated to the purposes of the grant, such as
     chartering a helicopter and private aircraft to fly to destination spots for personal purposes. Our
     investigation included extensive financial analysis, but did not identify any criminal misuse of
     grant funds. however, further investigation identified numerous administrative problems with their
     management, including travel expenses and unreasonable vendor costs and transfers of funds to
     another business. In April 2013, the U.S. Department of Justice declined to take criminal or civil
     action against the grantee. NTIA’s administrative action included suspending the award for nearly a
     year and declaring a portion of the award as unallowable costs under the grant. Additionally, NTIA
     required the grantee to restructure its organization and make significant improvements to its grant
     oversight and internal control policies.
38   Office of Inspector General | Semiannual Report to Congress | September 2013




     WOrk in
     prOGress

     WOrk in prOGress (by OversiGHt area)

     During this reporting period, 21 OIG audit and evaluation projects were initiated or underway.




                6


                              4                4


                                                                  2                  2          2
                                                                                                            1

         Department­wide     NOAA            USPTO               ESA a              NIST   Recovery Act b   BIS



     a   Both ESA works in progress concern the Census Bureau.
     b   Both Recovery Act-related works in progress concern NTIA.




     DepartMent-WiDe

     fy 2014 top Management challenges
     An annual report, required by the Reports Consolidation Act of 2000, highlighting the most
     significant management challenges facing the Department of Commerce.

     Office of secretary Working capital fund
     Evaluate controls over the Department’s Working Capital Fund, including a review of the
     Department’s budget process and financial management of the fund.

     fy 2013 audit of the Department’s financial statements
     Determine whether the financial statements are presented fairly, in all material respects, in
     accordance with generally accepted accounting principles. (The audit will also consider the
     Department’s internal control over financial reporting and test compliance with certain provisions
     of applicable laws, regulations, contracts, and grant agreements that could have a direct and
     material effect on the financial statements).

     Department’s incident Detection and response capabilities
     Determine whether key security measures are in place to adequately monitor networks, detect
     malicious activities, and handle cyber incidents.
                                                                                         Work in Progress   39




review of climate change efforts
Review the Department’s policies, environmental programs, and activities to carry out requirements
that federal agencies address climate change, including (a) a review of renovation initiatives at the
Department’s herbert C. hoover Building, to determine whether they meet requirements to reduce
energy use in federal buildings and (b) an assessment of the Department’s fleet management, to
determine how it is reducing petroleum use.

audit of Department’s use of time-and-Materials and labor-Hour contracts
Evaluate the Department’s awarding and administering of time-and-materials and labor-hour
contracts, which constitute a high risk to the government, as part of a risk-based oversight
strategy developed to help the Department address management challenges in its acquisition
function and to comply with the Office of Management and Budget’s directive that federal
agencies reduce their use of high-risk contracting authorities.


bureau Of inDustry anD security

bis export control reform preparedness
Audit BIS’ plans to implement changes to its licensing and enforcement operations resulting
from the Export Control Reform Initiative, including (a) a review of the adequacy of BIS program
plans and budget requests to address the increased workloads in Fys 2014–2016 and (b) an
evaluation of existing BIS licensing, outreach, and enforcement activities to identify any areas for
increased efficiencies.


ecOnOMics anD statistics aDMinistratiOn

census 2020 planning
Evaluate the Census 2020 planning efforts. Assess the implementation status of the research
and testing and the Geographic Support System initiative projects related to the Census 2020
design, the Census Bureau’s plans to evaluate each research project, and whether governance
and internal controls are sufficient to manage the design effort.

census budget reduction implementation
Review the Census Bureau’s process for implementing budget reductions to the 2020 Census
Research Program in Fys 2013 and 2014.


natiOnal institute Of stanDarDs anD tecHnOlOGy

audit of nist’s Oversight of contracts
Determine whether (1) NIST has managed and administered contracts in accordance with
federal and departmental guidelines, policies, and procedures, and (2) officials with performance
monitoring responsibilities possess the requisite training, technical expertise, and certification.

review of fys 2011 and 2012 Manufacturing extension partnership (Mep)
conference spending
Review federal spending at MEP conferences in Fys 2011 and 2012, including the May 2012
conference, to determine the legitimacy and reasonableness of related charges.
40   Office of Inspector General | Semiannual Report to Congress | September 2013




     natiOnal Oceanic anD atMOspHeric aDMinistratiOn

     audit of nOaa’s it security program
     Assess, as part of our Fy 2013 Federal Information Security Management Act audit, the
     effectiveness of NOAA’s information security program by determining whether key security
     measures adequately protect NOAA’s systems.

     review of nOaa’s catch share program
     Review fisheries management at NOAA and eight regional fishery management councils regarding
     NOAA’s catch share programs (i.e., allocation of the total allowable fishery catch or a specific
     fishing area to individuals, cooperatives, communities, or other entities) to determine the adequacy
     of related NOAA controls and processes.

     Joint polar satellite system (Jpss) implementation risks
     Review the adequacy of JPSS development activities, including the flight, ground, and “free-flyer”
     projects, as the program completes system definition and transitions to implementation according
     to NOAA and National Aeronautics and Space Administration (NASA) standards. Monitor NOAA’s
     overall progress in establishing the program’s capabilities (requirements), schedule, and cost
     baselines by the end of summer 2013 and its efforts in mitigating the projected data gap between
     Suomi National Polar-orbiting Partnership satellite’s end-of-design life and the planned operational
     availability of the first JPSS satellite (JPSS-1).

     audit of Geostationary Operational environmental satellite—r series
     (GOes-r) program
     Assess the adequacy of GOES-R development activities in accordance with NOAA and NASA
     standards. Monitor NOAA’s progress in developing and vetting with stakeholders a comprehensive
     set of trade-off approaches to mitigate launch delays and its oversight of GOES-R systems
     engineering.


     uniteD states patent anD traDeMark Office

     fy 2013 audit of usptO financial statements
     Audit USPTO’s Fy 2013 financial statements to determine whether the financial statements are
     presented fairly, in all material respects, and in accordance with generally accepted accounting
     principles. (The audit will also consider USPTO’s internal control over financial reporting and test
     compliance with certain provisions of applicable laws, regulations, and contracts that could have a
     direct and material effect on the financial statements).

     audit of usptO’s use of time-and-Materials and labor-Hour contracts
     Evaluate USPTO’s awarding and administering of time-and-materials and labor-hour contracts,
     which constitute high risk to the government, as part of a risk-based oversight strategy developed
     to help the Department address management challenges in its acquisition function and comply
     with the Office of Management and Budget’s directive that federal agencies reduce their use of
     high-risk contracting authorities.

     audit of usptO it Modernization projects
     Assess the impact of IT contract termination decisions made as a result of the $110 million
     reduction in USPTO’s IT budget, review progress USPTO has made in implementing the
     recommendations from the Fy 2011 Patent End-to-End audit, and assess the project
     management and technical progress USPTO has made in development and implementation of the
     Trademark Next Generation project.
                                                                                   Work in Progress   41




audit of usptO’s Delays in processing request for continued examination (rce)
patent applications
Evaluate the reason for the increase in the RCE backlog and review USPTO’s efforts to address
this issue.


aMerican recOvery anD reinvestMent act

broadband technology Opportunities program (btOp) equipment review
Determine whether NTIA has the personnel and processes in place to monitor BTOP grantees’
equipment acquisitions; assess whether grantees have appropriately acquired, tested, and
implemented the most effective equipment; and evaluate whether grantees are on track to
complete BTOP projects on schedule and achieve project goals.

broadband technology Opportunities program (btOp) closeout audit
Evaluate the effectiveness of closeout procedures for the NTIA’s BTOP awards as they near
completion. Assess whether NTIA—along with the grants offices at NIST and NOAA—have
established adequate policies and procedures for closing out approximately 230 BTOP awards
(valued at approximately $3.9 billion) and closeout procedures are being followed.
42   Office of Inspector General | Semiannual Report to Congress | September 2013




     statistical Data



     The Inspector General Act Amendments of 1988 require us to present the statistical data
     contained in Tables 1–8.

       tables                                                                                       page

       1. Office of Investigations Statistical highlights for This Period                            42

       2. Audit Resolution and Follow-up                                                             43

       3. Audit, Evaluation, and Inspection Statistical highlights for This Period                   44

       4. Audits with questioned Costs                                                               45

       5. Audits with Recommendations That Funds Be Put to Better Use                                46

       6. Report Types for This Period                                                               46

          6-a. Performance Audits                                                                    47

          6-b. Evaluations and Inspections                                                           47

       7. Single Audit and Program-Specific Audits                                                   48

          7-a. Processed Reports with Material Audit Findings                                        49

       8. Audits Unresolved for More Than 6 Months                                                   49



     table 1. Office Of investiGatiOns statistical HiGHliGHts fOr tHis periOD

     investigative activities cover investigations opened and closed by OIG; arrests by OIG
     agents; indictments and other criminal charges filed against individuals or entities as a result of
     OIG investigations; convictions secured at trial or by guilty plea as a result of OIG investigations;
     and fines, restitution, and all other forms of financial recoveries achieved by OIG as a result of
     investigative action.

     allegations processed presents the number of complaints from employees, stakeholders, and
     the general public that were handled by our Complaint Intake Unit. Of these, some resulted in
     the opening of investigations; others were referred to bureaus for internal administrative follow-
     up. Others were unrelated to departmental activities or did not provide sufficient information for
     any investigative follow-up and so were not accepted for investigation or referral. Fines and other
     financial recoveries refer only to agreements that a judge accepted.
                                                                                                         Statistical Data   43




                                                investigative activities

    Investigations opened                                                                                          53
    Investigations closed                                                                                          50
    Arrests                                                                                                        4a
    Indictments/Informations                                                                                       7b
    Convictions                                                                                                     2
    Fines and other financial recoveries                                                         $31,293,342.45c

                                                allegations processed

    hotline complaints                                                                                          660
    Total complaints, all sources                                                                               660
    Referrals to bureaus or non-Commerce agencies                                                               275
       Referrals with response required                                                                            55
              Responses received                                                                                   94
                  From referrals made this reporting period                                                        28
                  From referrals made prior                                                                        66
              Referrals closed                                                                                     92
       Referrals with no response required                                                                      124
    Evaluated but not accepted for investigation or referral                                                    316
a   Individuals arrested as part of on-going joint investigations with other federal agencies.
b   Four of the seven indictments actually occurred in the previous reporting period, but were not reported in
    the March 2013 Semiannual Report to Congress. We are counting these indictments in the current period’s
    total to accurately reflect our annual investigative statistics. The indictments related to an investigation
    regarding price-fixing and to an internal matter.
c   A portion of this total is derived from our participation in federal multiagency investigations. It does not
    reflect actual monetary recoveries for the Department.




table 2. auDit resOlutiOn anD fOllOW-up

The Inspector General Act Amendments of 1988 require us to present in this report audits issued
before the beginning of the reporting period (April 1, 2013) for which no management decision
had been made by the end of the period (September 30, 2013). One audit report remains
unresolved for this reporting period (see page 49).

audit resolution is the process by which the Department of Commerce reaches an effective
management decision in response to audit reports. Management decision refers to
management’s evaluation of the findings and recommendations included in the audit report and
the issuance of a final decision by management concerning its response.

Department Administrative Order 213-5, Audit Resolution and Follow-up, provides procedures
for management to request a modification to an approved audit action plan or for a financial
assistance recipient to appeal an audit resolution determination. The following table summarizes
modification and appeal activity during the reporting period.
44   Office of Inspector General | Semiannual Report to Congress | September 2013




         report category                                          Modifications           appeals

         Actions pending (April 1, 2013)                                  0                  2
         Submissions                                                      0                  3
         Decisions                                                        0                  2
         Actions pending (September 30, 2013)                             0                  3



     table 3. auDit, evaluatiOn, anD inspectiOn statistical HiGHliGHts
     fOr tHis periOD

     audits comply with standards established by the Comptroller General of the United States for
     audits of federal establishments, organizations, programs, activities, and functions.

     inspections include evaluations, inquiries, and similar types of reviews that do not constitute an
     audit or a criminal investigation.

     evaluations and inspections include evaluations, inquiries, and similar types of reviews that do
     not constitute an audit or a criminal investigation.


         questioned costsa                                                                $13,610,379

         Value of audit recommendations that funds be put to better useb                 $268,155,937

         Value of audit recommendations agreed to by managementc                         $279,705,019


     These amounts include costs questioned by state and local government auditors or independent
     public accountants.

     a questioned cost: This is a cost questioned by OIG because of (1) an alleged violation of
     a provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or
     document governing the expenditure of funds; (2) a finding that, at the time of the audit, such cost
     is not supported by adequate documentation; or (3) a finding that an expenditure of funds for the
     intended purpose is unnecessary or unreasonable.

     b value of audit recommendations that funds be put to better use: This results from an
     OIG recommendation that funds could be used more efficiently if Department management
     took action to implement and complete the recommendation. Such actions may include
     (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of
     interest subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by
     implementing recommended improvements related to the Department, a contractor, or a grantee;
     (5) avoidance of unnecessary expenditures identified in preaward reviews of contracts or grant
     agreements; or (6) any other savings specifically identified.

     c value of audit recommendations agreed to by management: This is the sum of
     (1) disallowed costs and (2) funds put to better use that are agreed to by management during
     resolution. Disallowed costs are the amount of costs that were questioned by the auditors or the
     agency action official and subsequently determined—during audit resolution or negotiations by a
     contracting officer—not to be charged to the government.
                                                                                                                     Statistical Data   45




table 4. auDits WitH questiOneD cOsts

See table 3 for a definition of “questioned cost.” An unsupported cost is a cost that is not
supported by adequate documentation at the time of the audit. questioned costs include
unsupported costs.

    report category                                               number                 questioned              unsupported
                                                                                           costs                    costs

    A.	    Reports for which no management decision
           had been made by the beginning of the                      18                $16,723,493                  $955,735
           reporting perioda

    B. 	 Reports issued during the reporting period                   14                  13,610,379                 3,847,014

    Total reports (A+B) requiring a management
    decision during the periodb                                       32                  30,333,872                 4,802,749

    C. 	 Reports for which a management decision
         was made during the reporting periodc                        23                  26,620,178                 1,989,450
           i. Value of disallowed costs	                                                  13,235,771                     41,810
           ii. Value of costs not disallowed	                                             13,384,407                 1,947,640

    D. 	 Reports for which no management decision
         had been made by the end of the
         reporting period                                              9                   3,713,694                 2,813,299

a   One audit report included in this table is also included among reports with recommendations that funds be put to better
    use (see table 5). however, the dollar amounts do not overlap.
b   In category C, lines i and ii do not always equal the total line in C because resolution may result in values greater than the
    original recommendations.
46   Office of Inspector General | Semiannual Report to Congress | September 2013




     table 5. auDits WitH recOMMenDatiOns tHat funDs be put tO better use

     See table 3 for a definition of recommendation that funds be put to better use.

          report category 	                                                                         number                    value

          A. 	 Reports for which no management decision had been made by
               the beginning of the reporting period                                                    0                           $0

          B. 	 Reports issued during the reporting period                                               4              268,155,937

          Total reports (A+B) requiring a management decision during the periodb                        4              268,155,937

          C. 	 Reports for which a management decision was made
               during the reporting periodc                                                             3              266,469,248
                 i. Value of recommendations agreed to by management 	                                                 266,469,248
                 ii. Value of recommendations not agreed to by management                                                             0

          D. 	 Reports for which no management decision had been made by
               the end of the reporting period                                                          1                 1,686,689
     a    One audit report included in this table is also included among reports with questioned costs (see table 4). however, the
          dollar amounts do not overlap.
     b	   In category C, lines i and ii do not always equal the total line in C because resolution may result in values greater than the
          original recommendations.




     table 6. repOrt types fOr tHis periOD

     performance audits are engagements that provide assurance or conclusions based on an
     evaluation of sufficient, appropriate evidence against stated criteria, such as specific requirements,
     measures, or defined business practices. Performance audits provide objective analysis so that
     management, and those charged with governance and oversight can use the information to
     improve program performance and operations, reduce costs, facilitate decision making by parties
     with responsibility to oversee or initiate corrective action, and contribute to public accountability.

     evaluations and inspections include evaluations, inquiries, and similar types of reviews that
     do not constitute an audit or a criminal investigation. An inspection is defined as a process that
     evaluates, reviews, studies, or analyzes the programs and activities of a department or agency to
     provide information to managers for decision making; make recommendations for improvements to
     programs, policies, or procedures; and identify where administrative action may be necessary.

          type                                            number of reports                                          table number

          Performance audits                                         6                                                  Table 6-a

          Evaluations and inspections                                4                                                  Table 6-b

          total                                                     10
                                                                                      Statistical Data                     47




table 6-a. perfOrMance auDits

 report title                                   report            Date      funds to be         amount         amount
                                                number           issued        put to          questioned    unsupported
                                                                             better use

 economic Development administration

 Malware Infections on EDA’s Systems          OIG-13-027-A     06.26.2013        0                       0        0
 Were Overstated and the Disruption
 of IT Operations Was Unwarranted

 Office of the secretary

 Internal Controls for Purchase Card          OIG-13-025-A     05.02.2013        0                       0        0
 Transactions Need to Be Strengthened

 Monitoring of Obligation Balances            OIG-13-026-A     06.18.2013   159,000,000                  0        0
 Needs Strengthening

 Classified Information Policies and          OIG-13-031-A     09.30.2013        0                       0        0
 Practices at the Department of
 Commerce Need Improvement

 national Oceanic and atmospheric administration

 Audit of Geostationary Operational           OIG-13-024-A     04.25.2013   105,940,788         8,857,750
 Environmental Satellite-R Series:
 Comprehensive Mitigation Approaches,
 Strong Systems Engineering, and
 Cost Controls Are Needed to Reduce
 Risks of Coverage Gaps

 u.s. patent and trademark Office

 USPTO Successfully Implemented Most          OIG-13-032-A     09.30.2013        0                       0        0
 Provisions of the America Invents Act,
 but Several Challenges Remain



table 6-b. evaluatiOns anD inspectiOns

 report title                               report             Date         funds to be       amount           amount
                                            number            issued           put to        questioned      unsupported
                                                                             better use

 national Oceanic and atmospheric administration

 Results of Commerce OIG’s                OIG-13-022-I       04.05.2013         0                   0            0
 Survey of Fishery Management
 Council members and Staff

 Office of the secretary

 letter to Representative Issa            OIG-13-028-I       06.28.2013         0                   0            0
 Regarding Information on OIG’s
 Open and Unimplemented
 Recommendations

 Nonfederal Audit Results for the         OIG-13-030-M       09.09.2013         0                   0            0
 6-Month Period Ending
 June 30, 2013

 Status of Departmental Actions           OIG-13-029-I       09.13.2013         0                   0            0
 to Correct National Weather
 Service Mismanagement of Funds
48   Office of Inspector General | Semiannual Report to Congress | September 2013




     table 7. sinGle auDit anD prOGraM-specific auDits

     OIG reviewed and accepted 105 audit reports prepared by independent public accountants
     and local, state, and other federal auditors. The reports processed with questioned costs,
     recommendations that funds be put to better use, and/or nonfinancial recommendations are listed
     in table 7-a.

         agency                                                                        audits

         Census                                                                            1

         Economic Development Administration                                              24

         International Trade Administration                                                1

         National Institute of Standards and Technologya                                  17

         National Oceanic and Atmospheric Administration                                   9

         National Telecommunications and Information Administrationb                      19

         Multibureau                                                                      32

         No Departmental expenditures                                                      2

         total                                                                           105
     a   Includes 11 program-specific audits.
     b   Includes 8 program-specific audits.
                                                                                             Statistical Data                     49




table 7-a. prOcesseD repOrts WitH Material auDit finDinGs

 report title                           report                    Date           funds to           amount            amount
                                        number                   issued         be put to          questioned       unsupported
                                                                                better use

 economic Development administration

 City of Baldwin Park, CA          ATl-09999-13-4796           06.27.2013       1,686,689                       0           0

 Northeastern Pennsylvania         ATl-09999-13-4803           07.09.2013                0             260,546              0
 Industrial Resource Center Inc.

 Southwest Arkansas Planning       ATl-09999-13-4768           05.21.2013       1,528,460                       0           0
 and Development District Inc.

 national institute of standards and technology

 Ebert Composites Corporation      ATl-09999-13-4843           08.20.2013                0                6,284             0
 (70NANB10h010)

 Nanoridge Materials Inc.          ATl-09999-13-4757           06.28.2013                0             248,340              0
 (70NANB7h7043)

 Nanoridge Materials Inc.          ATl-09999-13-4812           06.28.2013                0             151,862              0
 (70NANB7h7043)

 Nanoridge Materials Inc.          ATl-09999-13-4813           06.28.2013                0             164,837              0
 (70NANB7h7043)

 University of Nebraska            ATl-09999-13-4853           07.19.2013                0               28,526             0

 national Oceanic and atmospheric administration

 Commonwealth of the               ATl-09999-13-4838           06.27.2013                0             257,332        246,731
 Northern Mariana Islands

 New Jersey Sea Grant              ATl-09999-13-4821           08.02.2013                0               24,385             0
 Consortium Inc.

 Republic of the                   ATl-09999-13-4737           04.12.2013                0               50,705        50,705
 Marshall Islands

 State of Maine                    ATl-09999-13-4780           06.27.2013                0               10,234             0

 national telecommunications and information administration

 The Navajo Nation                 ATl-09999-13-4805           07.19.2013                0          2,762,594        2,762,594

 State of Oklahoma                 ATl-09999-13-4794           06.27.2013                0             418,788        418,788

 State of West Virginia            ATl-09999-13-4787           06.13.2013                0             368,196        368,196




table 8. auDits unresOlveD fOr MOre tHan 6 MOntHs

economic Development                  acadiana regional Development District
administration                        OIG received the Audit Resolution Proposal on May 7, 2013. Since
                                      then, there have been extensive and ongoing discussions between
                                      OIG and EDA.
50   Office of Inspector General | Semiannual Report to Congress | September 2013




     repOrtinG
     requireMents


     The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual
     reports. The requirements are listed below and indexed to the applicable pages of this report.

      section                      topic                                                       page

      4(a)(2)                      Review of legislation and Regulations                            50

      5(a)(1)                      Significant Problems, Abuses, and Deficiencies              16-32

      5(a)(2)                      Significant Recommendations for Corrective Action           16-32

      5(a)(3)                      Prior Significant Recommendations Unimplemented                  50

      5(a)(4)                      Matters Referred to Prosecutorial Authorities                    43

      5(a)(5) and 6(b)(2)          Information or Assistance Refused                                51

      5(a)(6)                      listing of Audit Reports                                         47

      5(a)(7)                      Summary of Significant Reports                              16-32

      5(a)(8)                      Audit Reports—questioned Costs                                   45

      5(a)(9)                      Audit Reports—Funds to Be Put to Better Use                      46

      5(a)(10)                     Prior Audit Reports Unresolved                                   51

      5(a)(11)                     Significant Revised Management Decisions                         51

      5(a)(12)                     Significant Management Decisions with Which OIG Disagreed        51

      5(a)(14)                     Results of Peer Review                                           51



     sectiOn 4(a)(2): revieW Of leGislatiOn anD reGulatiOns

     This section requires the inspector general of each agency to review existing and proposed
     legislation and regulations relating to that agency’s programs and operations. Based on this
     review, the inspector general is required to make recommendations in the semiannual report
     concerning the impact of such legislation or regulations on (1) the economy and efficiency
     of the management of programs and operations administered or financed by the agency or
     (2) the prevention and detection of fraud and abuse in those programs and operations.
     Comments concerning legislative and regulatory initiatives affecting departmental programs
     are discussed, as appropriate, in relevant sections of the report.

     sectiOn 5(a)(3): priOr siGnificant recOMMenDatiOns uniMpleMenteD

     This section requires identification of each significant recommendation described in previous
     semiannual reports for which corrective action has not been completed. Section 5(b) requires
     that the Secretary transmit to Congress statistical tables showing the number and value of audit
     reports for which no final action has been taken, plus an explanation of why recommended action
     has not occurred, except when the management decision was made within the preceding year.
     however, information on the status of any audit recommendations can be obtained through OIG
     upon request.
                                                                                      Reporting Requirements   51




sectiOns 5(a)(5) anD 6(b)(2): infOrMatiOn Or assistance refuseD

These sections require a summary of each report to the Secretary when access, information, or
assistance has been unreasonably refused or not provided.

In our March 2013 Semiannual Report to Congress, we reported that NOAA’s Deputy Secretary
for Operations informed the Inspector General via e-mail that OIG and GAO staff—both of whom
had been routine observers at past Program Management Council (PMC) meetings—would no
longer be invited to attend the monthly PMC meetings, where the National Environmental Satellite,
Data and Information Service environmental satellite program management offices report progress
and issues to NOAA executives. The Inspector General reported OIG’s concerns to NOAA
and the Deputy Secretary, and to the Secretary upon her arrival in July, and requested that OIG
attendance be reinstated. NOAA now allows OIG and GAO representatives to attend the monthly
PMC meetings. The matter is resolved.

sectiOn 5(a)(10): priOr auDit repOrts unresOlveD

This section requires (1) a summary of each audit report issued before the beginning of the
reporting period for which no management decision has been made by the end of the reporting
period (including the date and title of each such report); (2) an explanation of why a decision has
not been made; and (3) a statement concerning the desired timetable for delivering a decision
on each such report. There is one EDA report more than 6 months old for which no management
decision has been made. (See table 8.)

sectiOn 5(a)(11): siGnificant reviseD ManaGeMent DecisiOns

This section requires an explanation of the reasons for any significant revision to a management
decision made during the reporting period. Department Administrative Order 213-5, Audit Resolution
and Follow-up, provides procedures for revising a management decision. For financial assistance
audits, OIG generally must concur with any decision that would change the audit resolution proposal in
response to an appeal by the recipient. There are two appeals pending at the end of this period.

sectiOn 5(a)(12): siGnificant ManaGeMent DecisiOns WitH WHicH
OiG DisaGreeD

This section requires information concerning any significant management decision with which
the inspector general disagrees. Department Administrative Order 213-5 provides procedures
for elevating unresolved audit recommendations to higher levels of Department and OIG
management, including their consideration by an audit resolution council. During this period, no
audit issues were referred.

sectiOn 5(a)(14): results Of peer revieW

The most recent peer review of the Office of Audit and Evaluation was conducted in 2012 by the Office
of Personnel Management (OPM) Office of Inspector General. OPM OIG’s System Review Report of our
audit operations is available on our website. We received a pass rating, the highest available rating. We
are implementing all of OPM OIG’s recommendations for process and policy improvements.

The most recent peer review of the Office of Investigations was conducted in 2011 by OPM’s OIG.
We received a compliant rating. The final report of this peer review was issued on April 30, 2012.

In 2012, we conducted our latest peer review, which examined NASA OIG’s audit operations.
NASA OIG has informed us that it is implementing the recommendation we made in our review.
52   Office of Inspector General | Semiannual Report to Congress | September 2013




     acrOnyMs an D abbreviatiOns


     aia               America Invents Act                           M&ie           meals and incidental expenses

     atp               Advanced Technology Program                   Mep            Manufacturing Extension
                                                                                    Partnership (NIST)
     bis               Bureau of Industry and Security
                                                                     Mers           Measurement and Engineering
     btOp              Broadband Technology                                         Research and Standards
                       Opportunities Program
                                                                     nasa           National Aeronautics and
     cirt              Computer Incident                                            Space Administration
                       Response Team
                                                                     nist           National Institute of Standards
     caM               Commerce Acquisition Manual                                  and Technology

     DOc ci rt         Department of Commerce                        nMfs           National Marine Fisheries
                       Computer Incident                                            Service
                       Response Team
                                                                     nOaa           National Oceanic and
     eDa               Economic Development                                         Atmospheric Administration
                       Administration
                                                                     ntia           National Telecommunications
     esa               Economics and Statistics                                     and Information Administration
                       Administration
                                                                     nWs            National Weather Service
     fisMa             Federal Information Security
                       Management Act of 2002                        OiG            Office of Inspector General

     fitf              first-inventor-to-file                        OMb            Office of Management
                                                                                    and Budget
     fMc               Fishery Management Council
                                                                     OpM            Office of Personnel
     fy                fiscal year                                                  Management

     GaO               Government Accountability                     pftp           Public Telecommunications
                       Office                                                       Facilities Program

     Gas               Government Auditing Standards                 ptab           Patent Trial and Appeal Board

     GOes              Geostationary Operational                     rce            request for continued
                       Environmental Satellite                                      examination

     GOes-r            Geostationary Operational                     suomi npp Suomi National
                       Environmental Satellite-R Series                        Polar-orbiting Partnership

     HcHb              herbert C. hoover Building                    t&a            time and attendance

     it                information technology                        tip            Technology Innovation Program

     ita               International Trade                           usptO          U.S. Patent and
                       Administration                                               Trademark Office

     Jpss              Joint Polar Satellite System
U.S. Department of Commerce
Office of Inspector General
1401 Constitution Avenue, NW
Washington, DC 20230

www.oig.doc.gov




                         OUr MISSIOn

                         To improve the programs and operations of the
                         Department of Commerce through independent
                         and objective oversight.
